OIG Investigative Reports, Puerto Rico Department of Education Pays U.S. Over $19 Million to Settle False Claims Involving Migrant Education Program
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
Department of Justice
FOR IMMEDIATE RELEASE
FRIDAY, FEBRUARY 15, 2008
WWW.USDOJ.GOV
CIV
(202) 514-2007
TDD (202) 514-1888
Puerto Rico Department of Education Pays U.S. Over $19 Million to Settle False Claims Involving Migrant Education Program
WASHINGTON - The Puerto Rico Department of Education (PRDE) has paid over $19 million to settle allegations that the PRDE falsely certified its eligibility to receive federal funds under the Migrant Education Program, the Justice Department announced today.
Under the Migrant Education Program, the U.S. Department of Education provides funds to states and territories to assist state education agencies in providing appropriate educational services that address the special needs of migrant children. The regulations governing the Migrant Education Program enumerate specific criteria for state education agencies to use in identifying migrant children. The states and territories are responsible for providing to the U.S. Education Department an accurate count of eligible migratory children residing within their jurisdictions.
The federal government alleged that the PRDE falsely certified that it had eligible migratory children residing in Puerto Rico when it did not, and from 2001 to 2004 the PRDE received Migrant Education Program funds to which it was not entitled. In FY 2005 the PRDE ceased receiving Migrant Education Program funds, and in fiscal year 2006 the PRDE terminated its participation in the Migrant Education Program.
The PRDE agreed that a prior offset of the settlement amount - $19,052,908.36 - from other federal program funds that the U.S. Department of Education owed to the PRDE satisfied its payment obligation pursuant to this agreement.
This settlement resulted from a collaborative investigation by the Office of the U.S. Attorney for District of Puerto Rico, the U.S. Department of Education, Office of Inspector General, and the Justice Department's Civil Division.
###
08-119
Top
Printable view
Share this page
Last Modified: 02/20/2008
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov